Return
to the USDOJ/OIG Home Page
Travel Card Delinquencies
Report Number I-2001-008
August 2001
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
Background
Scope and Methodology
RESULTS OF THE REVIEW
CONCLUSION AND RECOMMENDATIONS
APPENDIX INumber of Travel Cards Issued/Average Monthly Travel Card Activity
APPENDIX IIIndividually Billed Travel Charges 120 Days or More Past Due (as of January 1, 2001)INS Employees
APPENDIX IIIINS's Response to the Draft Report
APPENDIX IVOIG's Analysis of INS's Response